<html>
<title> - U.S. TRADE POLICIES AND AGRICULTURE DISEASES: SAFETY, ECONOMIC, AND GLOBAL CONSIDERATIONS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
             U.S. TRADE POLICIES AND AGRICULTURE DISEASES:
              SAFETY, ECONOMIC, AND GLOBAL CONSIDERATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                INTERNATIONAL ECONOMIC POLICY AND TRADE

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 26, 1999

                               __________

                           Serial No. 106-153

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
67-606 CC                   WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVEN J. CHABOT, Ohio               EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADAVANOVICH, Califorina      JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
            Michael H. Van Dusen, Democratic Chief of Staff
            John P. Mackey, Republican Investigative Counsel
                     Parker Brent, Staff Associate
                                 ------                                

        Subcommittee on International Economic Policy and Trade

                 ILEANA ROS-LEHTINEN, Florida, Chairman
DONALD A. MANZULLO, Illinois         ROBERT MENENDEZ, New Jersey
STEVEN J. CHABOT, Ohio               PAT DANNER, Missouri
KEVIN BRADY, Texas                   EARL F. HILLIARD, Alabama
GEORGE RADANOVICH, California        BRAD SHERMAN, California
JOHN COOKSEY, Louisiana              STEVEN R. ROTHMAN, New Jersey
DOUG BEREUTER, Nebraska              WILLIAM D. DELAHUNT, Massachusetts
DANA ROHRABACHER, California         JOSEPH CROWLEY, New York
TOM CAMPBELL, California             JOSEPH M. HOEFFEL, Pennsylvania
RICHARD BURR, North Carolina
             Mauricio Tamargo, Subcommittee Staff Director
        Jodi Christiansen, Democratic Professional Staff Member
                Yleem Poblete, Professional Staff Member
                     Camilla Ruiz, Staff Associate




                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Michael V. Dunn, Under Secretary, Marketing and 
  Regulatory Service, Department of Agriculture..................     4
Benjamin Cohen, Senior Staff Attorney, Center of Science in the 
  Public Interest................................................     9
Craig Wheeling, President and CEO, Brooks Tropical...............    12
Peter Day, Director, Center for Agricultural Molecular Biology, 
  Cook College, Rutgers University...............................    14

                                APPENDIX

Prepared statement:

Alan Bowser, Deputy Assistant Secretary for Basic Industries, 
  International Trade Administration, Department of Commerce.....    24


    U.S. TRADE POLICIES ANDAGRICULTURE DISEASES: SAFETY, ECONOMIC, 
                        AND GLOBAL CONSIDERATIONS

                              ----------                              


                       TUESDAY, OCTOBER 26, 1999

              House of Representatives,    
         Subcommittee on International Economic    
                                      Policy and Trade,    
                      Committee on International Relations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:30 p.m., in 
room 2200, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen [Chairwoman of the Subcommittee] presiding.
    Ms. Ros-Lehtinen [presiding]. The Subcommittee will come to 
order.
    The upcoming Seattle round of negotiations is indicative of 
the critical importance of international trade of agriculture 
products to all countries in the global trading system. For the 
United States, agricultural exports represent billions of 
dollars for our economy. However, with expanded commercial 
relations, there are also increasing risks and challenges which 
must be addressed in order for our agricultural producers to be 
able to compete effectively in the global marketplace.
    One of these challenges is in the area of agricultural 
disease. While it is difficult to draw a direct correlation, 
critics of trade agreements, such as NAFTA, use statistical and 
scientific data, for example, to argue that many of the 
problems with agricultural pests and diseases are related to 
increased imports.
    Lori Wallach, director of the Global Trade Watch, relates 
this to provisions in the North American Free Trade Agreement 
[NAFTA], which restrict food safety and agricultural diseases 
and pest inspections.
    Contaminated or infected products can come directly from 
their point or origin or can be transshipped or repackaged 
through another country. An example is the smuggling of 
prohibited Asian products or French and German grape and 
nursery stock, both through Canada and into the United States
    A modification of this position is the view that trade 
agreements and the policies which support them place greater 
demands on domestic resources which means that only 70 percent 
of what crosses the borders at Nagales, New Mexico, for 
example, is inspected.
    For my State of Florida, this has resulted in the arrival 
of new pests, such as the hibiscus mealy bug which attacks 200 
kinds of plants, as well as increases in Med fly, citrus canker 
outbreaks, and the tomato yellow leaf curl virus, to name just 
a few.
    This not only translates into health hazards for domestic 
consumers, it also threatens the survival of many crops which, 
in turn, diminishes our export capacity. It creates a 
tremendous financial burden for these farmers, for the 
industries, for State structures which must deal with these 
threats, further affecting our global competitiveness.
    Again, focusing on the experiences of my home State, total 
State costs for control and eradication of these pests and 
diseases, as of September 30, 1999, amounted to over $56 
million. Industry costs for control is estimated at between 
$139 million to $144 million. Estimated annual potential sales 
lost with statewide spread is between $937 million and $1.2 
billion.
    But similar scenarios are developing throughout the United 
States raising the specter of the debate on country of origin 
labeling. The argument raised by critics of such proposals is 
that it could be used both as a non-tariff barrier by our 
trading partners to impede U.S. access to their markets or as 
an excuse for retaliation. Supporters who underscore that the 
proposal in no way is anti-trade will point to similar 
requirements by Canada, Mexico, the EU, and Japan, arguing that 
country of origin labeling could make the United States more 
consistent with the rest of the world.
    Other experts looking to curtail the spread of agricultural 
disease would say that, at least preliminarily, the answers are 
to be found in Sanitary and Phytosanitary [SPS] Agreements in 
regional and global trade accords. The commissioners and 
secretaries of Agriculture of New Mexico, Florida, Arizona, 
California, and Texas, for example, underscore the need for 
full implementation of these SPS Agreements with all trading 
partners, tighter measures for pest and disease prevention in 
the nations with whom we trade, and increased resources to 
Federal agencies for inspection, early detection, prevention, 
and eradication of pest and disease introductions.
    The Center for Science in the Public Interest is not 
supportive, arguing that reforms to the SPS Agreements are 
needed to protect U.S. food safety requirements from being 
weakened in the name of facilitating international trade.
    We hope to address all of these issues during today's 
hearings as well as the issue of biotechnology which not only 
provides possible solutions to the issue of agriculture disease 
but affords new opportunities for American companies in the 
global marketplace.
    I would like to enter into the record the statement of Mr. 
Gallegly who could not be with us today, without objection.
    [The above-mentioned statement was unavailable at 
presstime.]
    I would like to recognize our Ranking Member, Mr. Menendez 
of New Jersey, for his opening statement.
    Mr. Menendez. Thank you, Madam Chairlady. I appreciate your 
opening statement, and I have a different perspective on the 
hearing and hope to hear some of that as well.
    That is, in essence, the fight that America has always had 
in gaining fair market access for agricultural products, which 
has always been a challenge for the United States, from 
fighting dairy subsidies to demanding access for American beef 
products. Finding new ways to obstruct market access for 
agricultural products is a favorite pastime for many of our 
trading partners, and transgenic crops seem to have given the 
European Union [EU] and others a new opportunity to restrict 
American imports. So, in essence, we are in the midst of a food 
fight.
    The debate over GMO's and GMO products is not about the 
safety of the genetically modified food products, labeling 
requirements, or the environmental impact of transgenic crops. 
It is about one thing, in my view: the obstruction of market 
access.
    Certainly, the United States and other countries must 
ensure the safety of their food supply. Domestically, the Food 
and Drug Administration is charged with ensuring that GMO crops 
and processed foods containing GMO products are safe for 
consumption. However, domestic and overseas policies must be 
guided by sound science rather than unsubstantiated claims.
    To date there has been no scientific basis to conclude that 
genetically modified products are more risky than non-modified 
products. Yet it seems that the EU has seized on and perhaps 
even exploited consumer concerns about GMO's to support 
regulatory restrictions and barriers for the approval of GMO 
products. The EU has imposed a de facto ban on new GMO products 
imports by insisting that it cannot approve new products until 
2002 when new approval procedures are developed.
    Trade experts have rightly questioned whether the EU's de 
facto ban is simply a stalling tactic designed to give more 
time to the EU's domestic industries who were late in making 
investments in GMO technology to develop competitive products. 
The EU's ban in imports of hormone-treated beef, despite a WTO 
settlement decision favoring the United States may be 
indicative of what is in store for GMO's. Similar resistance by 
the EU to imports of new GMO products, even if the United 
States pursued and won a WTO case, would cost American 
companies and farmers millions of dollars in sales and lost 
market opportunities.
    I think the United States must separate fundamental market 
access issues from auxiliary issues being used to cloud the GMO 
debate, like labeling. The questions raised by consumer groups 
about whether GMO products should be labeled to allow consumers 
the right to choose whether or not to consumer genetically 
modified foods are legitimate, but the debate over labeling 
should not be used to obstruct product access. The United 
States must remain focused on the real debate which is about 
fair and timely market access for agricultural products whose 
safety is backed by science, and we look forward to some of the 
testimony in that regard.
    Thank you, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thank you.
    I would like to recognize other Members who may have some 
statements.
    Mr. Delahunt. I don't have a statement, and I want to 
apologize, because I am going to have to leave shortly, but I 
did want to listen to this testimony, and I am pleased, Madam 
Chairlady, that you have scheduled----
    Ms. Ros-Lehtinen. Thank you, Mr. Delahunt.
    Mr. Delahunt [continuing]. This particular hearing. But I 
do share the concerns of both you and Mr. Menendez. Thank you.
    Ms. Ros-Lehtinen. Thank you.
    Our first witness is the Honorable Michael Dunn, who is the 
Under Secretary for Marketing and Regulatory Services for the 
U.S. Department of Agriculture. Among his responsibilities is 
the managing of the Agricultural Marketing Service, the Animal 
and Plant Health Service, and the Grand Inspection Packers and 
Stockyards Administration, three agencies responsible for many 
aspects of the marketing, protection, quality, and 
transportation of the Nation's food, feed, and fiber supply.
    Prior to his appointment, Mr. Dunn served as Acting Under 
Secretary for Rural Economic and Community Development at the 
USDA. He was also Administrator of USDA's Farmers' Home 
Administration. He served also as vice president of the 
National Farmers Union and of the Farm Credit Bank of Omaha.
    The Department of Commerce official was unfortunately not 
able to be with us, but he will be submitting written testimony 
and asks that we submit any questions in writing, and he will 
be happy to answer.
    So, Mr. Dunn, we will be glad to enter your testimony in 
full in the record, and please feel free to summarize your 
remarks.

STATEMENT OF MICHAEL V. DUNN, UNDER SECRETARY FOR MARKETING AND 
         REGULATORY SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Dunn. Thank you, Madam Chair and Members of the 
Committee; I appreciate the opportunity to be here; to take up 
this most important matter.
    The global economy is certainly something that we need to 
deal with. Almost 40 percent of what we raise and grow in the 
United States is exported in some way, shape, or form. 
Passenger traffic has doubled since the 1990's; air cargo is 
doubling every 5 to 6 years. The United States expects to 
export and import more than ever. By fiscal year 2000, we 
expect to export some $50 billion in commodities in the 
agricultural sector.
    This increase also increases our risk of introduction of 
pest and disease. An example of that was in fiscal 1998, APHIS 
intercepted almost 2 million potential pest and disease-bearing 
plants and animals; more than 52,000 carried some type of 
harmful pest and disease, which could cause billions of dollars 
in damages.
    The Animal Plant Health Inspection Service [APHIS] 
safeguards agriculture by facilitating trade through sound, 
science-based regulations. If you will think of this as a full 
continuum of how we go about safeguarding our borders, we have 
a preclearance inspection; we then have import permit 
decisions, giving permits to import or export into the United 
States; we have port of entry inspections; we have quarantine 
treatments; we have detection surveys, and finally then when we 
do find something, we have eradication programs.
    At the port of entry, we have teams of inspectors. You may 
have seen our beagle brigade, the small beagle dog which is 
non-threatening, but has the best nose in the business, and if 
you try to bring in some animal product or vegetable that is on 
a restricted list, they will catch you. We have, in addition to 
that, animal import centers, which quarantine animals coming 
into the United States.
    We have two entities that play an important role at APHIS. 
One is Plant Protection and Quarantine [PPQ]. They look 
primarily for the plant-side seeds, plants, bulbs, timber, 
flowers, etc. Then we have Veterinary Services, which also has 
the National Center for Import and Export for Animal and Animal 
Products.
    Phytosanitary certificates from exporting countries need to 
be verified by that country's officials, and this is part of 
what the WTO SPS Agreement was all about. We identify what we 
have, a pest or disease of concern, in their country; they do 
the same in our country. They rely upon our officials to 
certify whether or not the product is coming from an area that 
is free from that pest or disease, and we rely upon them to do 
the same thing.
    We have in APHIS an international service, people that are 
actually located in 26 foreign countries. They maintain 
information on the pest and disease that those countries might 
have, and they certify that that country's program is in fact 
designed to exclude the pest and disease of concern. They also 
spend a great deal of time explaining our programs to their 
consumers and producers, and if we have a problem with a 
shipment going to that country, they are the ones, the first 
line of defense for us, to explain exactly what is in that 
product that is coming in that may be under contention.
    We also conduct cooperative and pest disease control and 
eradication programs in other countries. An example of this is 
the screwworm eradication program that we have going in Central 
America. We have been able to eradicate that disease from the 
United States, and we are looking to establish a border in 
Panama at the Darien Gap that will essentially keep all of 
Central and North America free. Also foot-and-mouth disease 
eradication is taking place in Central America.
    Our phytosanitary standards that are developed, NAFTA and 
the WTO, are linked to risk and are based upon sound science. 
We have international standard-setting bodies, such as the 
Office of International Epizootics, the International Plant 
Protection Council, and the Codex Alimentarius. On all of those 
standard-setting boards, APHIS has delegations that help set 
these international standards.
    Before we had the SPS and WTO, our trading partners 
required either treatment of our products before they would 
accept them in or more often would simply exclude the product 
from going into their country. Since we have had the SPS, our 
trading partners must accept our pest-free areas 
regionalization and the systems approach of a series of 
measures to mitigate the possibility of the pest. Results in 
the past 3 years has been that the United States has been able 
to maintain or open some $9.5 billion in exports through the 
SPS WTO programs. At the same time, the United States has 
expanded import of some $49 million.
    The WTO strengthens the SPS by emphasizing the importance 
of using the risk analysis, the use of sound science, and the 
requirement of communications to other countries. For this to 
work here in the United States, we need monitoring and 
surveillance to ensure that things do not get into the country.
    As the Chair had indicated, one of our greatest concerns is 
the amount of pests and disease that are coming in through 
smuggled goods in the United States. What we have found, where 
we have protocols in place with a country which will allow 
treated material to come in or certified pest-free product to 
come in, the amount of smuggling goes down. We need to continue 
our monitoring and surveillance. The earlier that we take 
action, the less it takes to fight--to do the eradication.
    We have had a number of eradication programs, as the Chair 
has indicated--Med fly eradication in Florida, ongoing program 
in California as well. We are, however, losing many of the 
chemical tools that we need for these eradication purposes, and 
we need to develop new methods.
    We have asked the National Plant Protection Board to give 
us some recommendations on what they think we need to safeguard 
America. They have come up with a booklet entitled 
``Safeguarding America.'' Within that, they have 300 
recommendations for USDA to take to safeguard our borders from 
plant pest and disease. We are currently evaluating those 
recommendations and will begin to implement them as the budget 
allows.
    Thank you very much, Madam Chair.
    Ms. Ros-Lehtinen. Thank you.
    USDA has stated that it would have to create a multimillion 
dollar infrastructure to inspect products if country of origin 
label requirements are implemented. What is your view about 
establishing cooperative agreements with our States which 
already have some sort of labeling requirement?
    Mr. Dunn. I believe that was from our Food Safety 
Inspection Services on what it would cost to establish the 
various process lines for meat, for instance, and how much it 
would cost for the packer to segregate and then for USDA to in 
fact ensure that that type of labeling takes place.
    The other concern that we have is that we have very little 
inspection that takes place at the retail level. Most of our 
inspection is at the wholesale level or as it comes into the 
country, and we simply do not have the infrastructure out there 
as far as inspectors to do an ongoing retail type of 
inspection.
    Ms. Ros-Lehtinen. And following up on what you say about 
inspection, it is clear that the imports of fruits and 
vegetables have increased over the last 5 years, and, 
therefore, harmful pests and diseases have also increased 
substantially. Have the number of inspectors and the funding 
for detection and eradication efforts kept pace with these 
increases, and how have you responded to the increasing demand 
for inspection and eradication?
    Mr. Dunn. What we have tried to do is to use a risk 
analysis on inspections. So we try to determine what are the 
pest and disease of greatest concern to us, and then what are 
the pathways that those might come into the United States. What 
we have tried to do is target the resources, both human and 
fiscal resources we have, for those pathways to ensure that 
that does not happen.
    Our funding has been moderately increased to offset cost-
of-living increases, etc. A good portion of the funding that we 
have is based upon user fees, and as the number of passengers 
increase for planes and at ports, we do have additional moneys 
that way to ensure the interception of what might be coming in.
    Ms. Ros-Lehtinen. And Mr. Gallegly would like to ask you 
this question: ``Some of my constituents,'' he states, ``have 
brought to my attention, and this has been reinforced by the 
National Plant Board report, that APHIS has been remiss in 
soliciting information from stakeholders when making important 
decisions which affect plant and animal health. I find this 
alarming since stakeholders are the people who are most 
affected by the work APHIS is doing. There are a great number 
of universities, scientific personnel, growers, grower 
organizations, etc., and APHIS should be interacting with them 
to discuss issues of pests and diseases in the United States or 
abroad. What is APHIS doing to reach out to such stakeholder 
groups?''
    Mr. Dunn. I think this is an extremely important issue to 
have everyone's input. In fact we underwrote the cost of the 
``Safeguarding America,'' which was made up of one-third 
industry personnel, on-third academia, and one-third State 
personnel, and asked that group to come up with exactly the 
types of things that they were talking about as what do we need 
to do to safeguard the United States.
    Now, in addition to that, our risk analysis is something 
that we need people to have a better understanding of. Very few 
people read those risk analyses when they are published in the 
Federal Register. We will be, at the beginning of the year, 
having a public hearing on our risk analysis to have input from 
everyone on how we go about doing those.
    But then on individual rules, what we have tried to do is 
have as much input as possible. On our avocado rule, for 
instance, we had five national hearings to allow everyone an 
opportunity to come up with any type of input that they think 
they should have before we put that rule into place. That is 
one of the areas that certainly with the use of the Internet 
there is the potential to get greater input. We will do our 
best on that, Madam Chair.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Menendez.
    Mr. Menendez. I have no questions.
    Ms. Ros-Lehtinen. Mr. Delahunt.
    Mr. Delahunt. Yes, I would just--and you didn't obviously 
direct your remarks at all to the comments and observations 
about the GMO's by Mr. Menendez. I don't know if you have an 
opinion, but I am obviously interested in your analysis and 
your evaluation.
    Mr. Dunn. I think Mr. Menendez makes an excellent point. 
There is no finding of any safety reasons for labeling GMO's at 
all, and that has been the opinion of this administration as we 
have gone forward. Now, we are finding that this year, at 
harvest time, there has been some segregation of the product, 
and that has been dictated by the processors. And that, in 
turn----
    Mr. Delahunt. Because of economic reasons, the ability to 
sell to the European market.
    Mr. Dunn. That is correct.
    Mr. Delahunt. Is there any science at all that provides a 
rationale for the EU's position or is this just simply blatant 
protectionism?
    Mr. Dunn. Well, we don't feel there is any rationale.
    Mr. Delahunt. But do they pretend? Do they cite scientific 
data or any studies whatsoever that have any validity or 
legitimacy?
    Mr. Dunn. You can always find some scientist----
    Mr. Delahunt. Right.
    Mr. Dunn [continuing]. To say something. Just like some 
economists can have----
    Mr. Delahunt. I used to be a prosecutor, and of course in 
the area of responsibility and sanity, there was always an 
expert to testify on both sides. So, I understand that, but I 
guess the point that I am trying to make, Mr. Secretary, is 
there a reputable, legitimate institution that has done any 
studies in this area that provides a rationale for the position 
of the EU that is well respected in terms of these kind of 
issues?
    Mr. Dunn. Mr. Delahunt, we have been in this business of 
approving GMO's for about 12 years now here in the United 
States. At USDA, the Animal Plant Health Inspection Service 
approves the field testing and the transportation of the 
product. What we look for is to see if there is any impact on 
non-targeted species, if there is going to be any environmental 
impact. The Environmental Protection Agency looks at it as if 
it is in fact something like a VT gene which has an insecticide 
in it so that there is no adverse effects there. Then the Food 
and Drug Administration looks at it for food safety reasons. To 
date, we have found no reason on those that have been approved 
not to approve them.
    Now, Secretary Glickman does understand that there is a lot 
of concern about this. We have asked the National Academy of 
Science to review how we at USDA go about our approval process. 
The Secretary has asked that we establish regional centers to 
monitor the long-term effects.
    Mr. Delahunt. Has there been a study commissioned by the 
NSA?
    Mr. Dunn. Yes, we have commissioned a study.
    Mr. Delahunt. Do we have any estimate as to when that study 
may be concluded? Approximate; I am not asking for date 
certain.
    Mr. Dunn. It will probably be a year to a year and a half.
    Mr. Delahunt. Thank you. That is all I have.
    Ms. Ros-Lehtinen. Thank you so much.
    Thank you, Mr. Dunn, and if we have any followup questions, 
we will be submitting to them.
    Mr. Dunn. Thank you, Chair.
    Ms. Ros-Lehtinen. Thank you.
    Our second panel leads off with Mr. Benjamin Cohen, senior 
staff attorney at the Center for Science in the Public 
Interest. Prior to this assignment, Mr. Cohen worked at the 
Federal Trade Commission on both anti-trust and foreign trade 
cases before the International Trade Commission and the 
Department of Commerce. He also worked for the Committee on 
Commerce and the Committee on Government Reform and Oversight 
of the U.S. House of Representatives, as well as for 
Representative Fattah and Congresswoman Meek. We welcome you 
back, Mr. Cohen.
    He is followed by Mr. Craig Wheeling, president and CEO of 
Brooks Tropicals. As CEO of Brooks Tropicals, Mr. Wheeling is 
responsible for overseeing the daily operations of the company. 
Involved in agriculture since age 12, he joined Brooks Tropical 
in 1988 as an assistant to Powell Brooks. After Hurricane 
Andrew nearly devastated the company in 1992, he was largely 
responsible for spearheading the reconstruction of operations 
and the development of offshore business ventures and new 
products. We thank you for being here, Mr. Wheeling.
    Our last witness is Mr. Peter Day. Since 1979, he is the 
director of the Center for Agricultural Molecular Biology and 
professor of Genetics at Rutgers University. His research has 
been concerned principally with the genetics of plant photogens 
and the challenge of breeding disease-resistant crop plants. 
Mr. Day has been involved with the development and the 
application of molecular biology to crop plant improvement. 
Most recently, this has expanded to the use of new technology 
for environmental viral mediation and livestock improvements, 
which are among the interests of the center he directs at 
Rutgers, and, boy, I could use you with my daughter's science 
experiments. Welcome, Mr. Day.
    So, we will begin with Mr. Cohen. It is good to see you 
again, Ben.

STATEMENT OF BENJAMIN COHEN, SENIOR STAFF ATTORNEY, CENTER FOR 
                 SCIENCE IN THE PUBLIC INTEREST

    Mr. Cohen. Thank you, Madam Chair. I am here today on 
behalf of the Center for Science in the Public Interest, a non-
profit organization founded in 1971. CSPI is an advocate for 
safer food and better nutrition. Its one million members 
receive our monthly magazine, ``Nutrition Action 
Healthletter.'' I have given copies of this month's issue to 
the Committee staff to make available to Members of the 
Committee. I ask that my entire statement be made part of the 
record.
    Ms. Ros-Lehtinen. We will be glad to enter all of your 
statements in the record, and feel free to summarize.
    Mr. Cohen. Thank you.
    As you said in your opening statement, today's hearing is 
especially timely, because in 5 weeks the World Trade 
Organization's Ministerial Conference will begin in Seattle. 
Our testimony focuses on the Agreement on the Application of 
Sanitary and Phytosanitary Measures, the SPS Agreement, which 
was negotiated as part of the Uruguay Round of Trade Agreements 
and approved by Congress in 1994. As USDA's witness just noted, 
this agreement covers both pests and food safety.
    Let me state at the outset that we support expansion of 
international trade and recognize the benefits to consumers 
that it may bring. We also recognize that international 
harmonization of food safety standards facilitates trade. The 
benefits of promoting trade through harmonization, however, 
must be balanced against the possible harm to consumers that 
harmonization entails.
    The international harmonization process will only benefit 
consumers if national regulatory standards are harmonized in an 
upward manner that provides the public with the greatest degree 
of protection from unsafe foods and deceptive trade practices. 
Unfortunately, the SPS Agreement, as it has been interpreted 
and applied during the last 5 years by the WTO, threatens the 
United States regulatory requirements because it is leading to 
just the opposite, to downward harmonization. We, therefore, 
support reforms to the SPS Agreement that would protect United 
States food safety and consumer protection regulations from 
being weakened in the name of facilitating trade.
    Let me begin by summarizing the SPS Agreement. Under the 
agreement, the WTO may force a nation to choose between 
lowering its health standards for humans, animals, or plants or 
paying an international penalty. A national health standard is 
illegal under the SPS Agreement if the WTO decides that it is 
not, ``based on scientific principles and is maintained without 
sufficient scientific evidence.'' In making this judgment, the 
WTO examines the extent to which the country has done a 
scientific assessment of the risk to human, animal, or plant 
life or health.
    One of the primary purposes of the SPS Agreement is to 
promote trade by encouraging countries to develop and rely on 
international food regulatory standards. The SPS Agreement 
specifically refers to food standards set by a United Nations 
affiliated organization called the Codex Alimentarius 
Commission, which was established in 1962 by the U.N. World 
Health Organization and Food and Agricultural Organization.
    Prior to 1995, national governments were free to accept or 
reject Codex standards. However, with the ratification of the 
SPS Agreement, Codex's role has changed greatly. Article 3.2 of 
the SPS Agreement provides that a country employing a Codex 
standard, guideline or recommendation is presumed to be in 
compliance with its WTO obligations. On the other hand, article 
3.3 of the SPS Agreement provides that a country with a 
regulatory requirement that results in a higher level of 
protection than a Codex standard, guideline, or recommendation 
is presumed to have erected a barrier to international trade 
unless the country can show that its standard has a scientific 
justification. Thus, the SPS Agreement, by encouraging WTO 
challenges to a national health standard only when it exceeds 
the Codex standard, has a bias leading to a downward 
harmonization of health standards. In fact, Codex standards 
should be a floor, not a ceiling.
    A country that the WTO determines has erected such a trade 
barrier must either lower its regulatory requirement or pay an 
international penalty. This penalty can take the form of either 
compensating the foreign government whose exports to the 
country have been limited or permitting that country to impose 
trade restrictions on imports from the country that maintained 
the higher food safety standard.
    Codex has had three meetings since the SPS Agreement was 
ratified in 1994. In the first meeting, in 1995, Codex--by a 
vote of 33 to 29 with 7 abstentions--approved the use of growth 
hormones for cattle. This Codex decision helped the U.S. 
Government win a legal battle at the WTO declaring that the 
European Union's ban on beef hormones is illegal, but of course 
no exports have resulted from this decision. The only thing 
that has happened is we have higher food prices in the United 
States and social unrest in France, including the burning of 
McDonald's Restaurants.
    Since that time, the United States has fared even worse. At 
the 1997 Codex meeting, the United States lost two key votes. 
Codex adopted--by a vote of 33 to 31 with 10 abstentions--an 
international safety standard for natural mineral waters that 
permits higher levels of lead and other contaminants than the 
Food and Drug Administration now allows. Codex also adopted--by 
a vote of 46 to 16 with 7 abstentions--an international 
standard for food safety inspection that permits self-
evaluation by the company or nongovernmental third-parties, 
even though in the United States such food safety inspections 
are the responsibility of the Department of Agriculture, the 
FDA, and the State governments.
    The United States avoided losing any recorded votes at this 
year's meeting by just acquiescing to six decisions that 
provide less protection to consumers than the United States now 
requires. At the June 1999 meeting, Codex unanimously approved 
residue tolerances for methyl parathion and other pesticides, 
even though in August 1999 the Environmental Protection Agency, 
as mandated under U.S. law, banned methyl parathion for fruits 
and vegetables because of its potential adverse effects on 
children.
    So, what we now have is the following situation: The EPA 
has banned the use of this pesticide; Codex has approved its 
use. EPA has told us that they are telling the Mexican 
government that they can no longer ship fruits and vegetables 
to this country if they use this pesticide. The Mexican 
government may say, ``Now, hold on, Codex just approved this 
standard. We are going to sue you in the WTO for a trade 
barrier.'' If the United States loses that decision with WTO, 
then we would either have to change the standard or pay 
compensation to the Mexicans.
    At this year's meeting, Codex also approved a standard for 
natural mineral water that still permits higher levels of lead 
and other contaminants than the FDA now allows. Codex also 
approved an international standard that does not require 
pasteurization of dairy products even though pasteurization is 
required generally by the FDA.
    Codex also sanctioned the use of five food additives which, 
while presumably safe, have not been formally approved by the 
FDA for use in this country. Codex also approved an 
international standard for the labeling of a composite 
ingredient in prepackaged foods that permits it to be listed by 
a standardized name without declaring all its component 
ingredients if it is less than 5 percent of the food, even 
though the FDA requires these components to always be listed in 
order to protect consumers who suffer from hypersensitivities. 
Codex also defeated attempts to strengthen current Codex 
nutrition labeling requirements to make them more akin to the 
United States law.
    The United States' acquiescence to these Codex standards 
means that it may be only a matter of time before current EPA, 
FDA, and USDA regulations are challenged as trade barriers by 
countries invoking the Codex standards as evidence that United 
States regulatory requirements are unreasonably high. This 
process is unacceptable. Food safety and consumer protection 
must not be sacrificed in the name of harmonizing regulatory 
requirements and facilitating trade.
    Now, the administration has told Congress that it is 
pleased with what happened with Codex. There is a letter, dated 
August 16, which I have given to the staff and would like to 
have made part of the record.
    Ms. Ros-Lehtinen. Without objection.
    [The above-mentioned document was unavailable at 
presstime.]
    Mr. Cohen. It is a letter from the Deputy USTR Director 
Susan Esserman to Congressman Pallone----
    Ms. Ros-Lehtinen. Mr. Cohen, if you could summarize your 
statement.
    Mr. Cohen. Sure--saying that they are pleased with the 
results of Codex this summer even though the Codex decisions 
undermine our safety regulations.
    We urge that this Committee not be pleased with these 
threats to U.S. food safety and that you take the lead in 
telling the administration that the SPS Agreement should in 
fact be changed in Seattle.
    Ms. Ros-Lehtinen. Thank you, Mr. Cohen.
    Mr. Wheeling.

    STATEMENT OF CRAIG WHEELING, PRESIDENT AND CEO, BROOKS 
                           TROPICALS

    Mr. Wheeling. Thank you, Madam Chairperson. My name is 
Craig Wheeling. I work for Brooks Tropicals. Our company grows 
tropical fruit, like avocados, limes, papayas, and mangos.
    Our main problem is harmful pest introduction. All our 
fruit is vulnerable to pest introductions like fruit fly. 
Furthermore, effective sprays either may not exist, or may not 
be approved for use by EPA. A good example of our problem is 
bacterial citrus canker, or avocado seed weevil where there is 
no cure short of destroying the host tree.
    Our firm supports improved trade. Indeed a good portion of 
our company's business revolves around marketing fruit from 
Latin American and Caribbean countries. But, Florida is 
currently suffering a rash of pest infestations. In the 1990's, 
we had two infestations of citrus canker, one of which is going 
to cost over $170 million to eradicate, and currently threatens 
both the citrus and lime industries. Canker is currently one 
mile north of our commercial lime growing area. We, as a 
company, will spend over $300,000 to combat canker this year 
with no commensurate added revenue.
    Other pest introductions include oriental fruit fly, found 
in May 1999; Med fly, found in 1990, 1997, 1998; citrus leaf 
miner, found in May 1993; brown citrus aphid, found in November 
1995; citrus psyllid, found June 1998; citrus long horned 
beetle, found 1999. In the interest of time, I will delete the 
rest of them, but the list does go on and is considerable. Some 
of these are very serious economic pests of concern like Med 
fly and the canker which can destroy or cripple an entire 
industry.
    Producers of fruits and vegetables throughout the United 
States have also experienced severe crop losses due to 
undetected pests on imported produce. The costs to the States 
and most importantly to growers are enormous. The above list 
does not lend growers confidence that our borders are being 
protected from pests. Where are these pests coming from? Why 
are new exotic pests showing up at an unprecedented rate?
    At the same time that pest introductions in Florida have 
mushroomed, trade and travel have increased without due 
consideration to safeguarding our borders. For instance, during 
a similar period to the pest infestations I just described, 
trucks carrying Mexican produce through Nogales have increased 
by 62 percent to 150,744 annually. Fresh produce has nearly 
doubled. The USDA APHIS, PPQ web site states that ``the sheer 
volume of trade means about 70 percent of the trucks sail 
through the Nogales entry gates without anyone from any agency 
inspecting any cargo at all.''
    The systems approach has been used to justify liberalized 
fruit importation rules in the United States. This is a 
statistical model predicting likely infestations through a 
quantitative risk assessment. But we believe there are problems 
with the use of the model. Dr. Jan Nyrop, associate professor 
of Entomology at Cornell University, analyzed the risk 
assessment used by the U.S. Department of Agriculture for 
Mexican avocado entry. He concluded that the Monte Carlo 
simulation is not needed and only provides a veil of analytical 
objectivity. The data upon which parameters for the model were 
estimated are either non-existent or not adequately documented. 
The results of the model cannot be accepted with any level of 
confidence.
    The systems approach was used on Sharwil avocados in Hawaii 
in 1990. The USDA then discovered, contrary to the model, that 
Sharwil avocados were on tree hosts to fruit fly. Mexico has 
been allowed to ship avocados into 19 northern U.S. States for 
two seasons using the systems approach. Prior to this 
allowance, a major area of concern with the model was that it 
would be impossible to restrict distribution of the fruit to 
these 19 States.
     In the first season, the Department of Agriculture alleges 
that Wal-Mart violated the Plant Protection Act by receiving 
Mexican fruit outside of the designated 19 States. Six States 
outside of the legal area are believed to have received illegal 
fruit during the first season. In the second season, five other 
distributors shipped Mexican fruit outside the 19 State area, 
one shipment of which went to Florida where a scale insect was 
found, which in Florida is an actionable pest. Using a systems 
approach based on inaccurate inputs is equivalent to the old 
computer adage of garbage in, garbage out.
    A further problem in trade negotiation is pesticide 
regulation. Currently, we do not have a level playing field. 
For instance, Mexico is allowed, or had been allowed, to export 
avocados to the United States with parathion residue. Parathion 
is an acutely toxic pesticide that may pose chronic effects 
including nerve and muscular degeneration, depression, memory 
loss, and disorientation. It is associated with bird kills 
since the 1950's and 52 accidental fatalities in the United 
States from 1965 to 1980. Most U.S. uses of parathion were 
canceled in 1991; however, Mexico has been allowed to export 
avocados to the United States with a residue of parathion on 
the fruit.
    In summary, as trade has exploded, pest infestations have 
become a huge problem, especially to subtropical farmers who 
are near ports of entry. U.S. producers are severely restricted 
on what pesticides they can use, and new U.S. pesticides tend 
to be very expensive. They have a very tough time fighting new 
pests, some of which can destroy our farms if they become 
established. We believe that successful trade discussions must 
address these two problems.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Wheeling.
    I would like to enter into the record, without objection, 
the opening statement of Mr. Radanovich, and we welcome you to 
our Subcommittee today, and also the statement of Mr. Michael 
Wooten, the director of Federal Government Affairs of Sunkist 
Growers.
    [The above-mentioned statements were unavailable at 
presstime.]
    I would like to apologize to our Ranking Member, Mr. 
Menendez, for not allowing him the opportunity to properly 
introduce his constituent, Dr. Day, from Rutgers.
    Mr. Menendez. Well, you did an excellent job, Madam Chair. 
I look forward to his testimony.
    Ms. Ros-Lehtinen. Thank you.
    Dr. Day, we will enter your statement into the record as 
well.

   STATEMENT OF PETER DAY, DIRECTOR, CENTER FOR AGRICULTURAL 
      MOLECULAR BIOLOGY, COOK COLLEGE, RUTGERS UNIVERSITY

    Mr. Day. Thank you, Madam Chairman. My name is Peter Day, 
and I am the director of the Biotechnology Center for 
Agriculture and the Environment at Cook College, Rutgers, the 
State University of New Jersey.
    The purpose of my statement is, in brief, just to set the 
stage for a discussion of the issues surrounding genetic 
manipulation as they affect trading concerns. By way of 
introduction, let me say that plant breeders have always been 
concerned with increasing yield, improving quality, and 
extending the ability of crops to withstand the environmental 
extremes of temperature, humidity, and attacks of pests and 
diseases.
     Improvements in agricultural technology have maximized the 
efficient use of fertilizers, herbicides, pesticides, 
irrigation and cultivation methods, and machinery, together 
with genetic improvements to the crops themselves. All this 
technology has sustained a steady yield increase of between 1 
to 2 percent a year for the major crops. Genetic improvement 
has been responsible for about 50 percent of these increases.
    Conventional plant breeding includes a major element of 
chance. Each new variety is similar to a hand of cards dealt at 
random from a shuffled deck. A breeder can stack the odds by 
carefully choosing the parents of each cross he makes, but the 
random assortment of genes, and the chromosomes that carry 
them, means that the outcomes are unpredictable. Finding the 
best combinations in conventional breeding depend on the 
breeder's art and skill in selection in early generations of 
testing.
    Genetic manipulation [GM] has provided the opportunity to 
make directed genetic changes. It is carried out by introducing 
foreign DNA into already successful varieties of crop plants 
with the object of selectively improving them one character at 
a time. Although the techniques are still elaborate and 
expensive, they have now been applied to more than 60 different 
crops and cultivated plants. Unlike sexual hybridization, it is 
not restricted by barriers between species.
    To a large extent, the newly added characters have been 
designed to appeal to the farmer and not the consumer. They 
reduce farmers' losses, lower his costs, reduce pesticide 
pollution of his land and water but have so far done little to 
benefit the consumer directly in terms of higher quality, 
reduced prices, or enhanced availability. This is not to say 
that there isn't a great deal of work directed to this end, but 
it has not yet paid off.
    Some consumers are now concerned about the risk of eating 
GM foods, both to themselves and the environment. In Britain, 
the debate has become strident, in part, because the British 
public was sensitized by the recent mad cow disease epidemic 
and their perception that they might have a risk of contracting 
Creuzfeldt-Jakob syndrome, and more recently, by the 
unfortunate communication to the media of a poorly designed and 
inconclusive experiment with genetically manipulated potatoes.
    The work, carried out at the Rowett Research Institute in 
Scotland, involved trials in which rats were fed potato tubers 
from plants engineered to express an insect repellent protein 
from snowdrop. It was not subject to peer review in a journal 
before the authors went public. They claimed that rats fed GM 
potatoes for 10 days and then sacrificed showed minor gut 
abnormalities and other defects. A letter making similar but 
more modest claims was published in the Lancet on October 16, 
just a week ago. This letter has been met with a storm of 
protest from knowledgeable scientists.
    Here in the United States, a number of thoughtful and 
responsible people would like to see GM foods labeled to allow 
consumers a choice. However, processors, and marketers are 
concerned over the cost and inconvenience of separating GM from 
non-GM produce after the farm gate and especially when the 
harvested product, like soybean, is used in many different 
kinds of food and food products. To many of us, this seems 
illogical when there is no convincing evidence that GM food is 
harmful. We may note that the refusal of most organic farmers 
to grow GM crops means that some consumers will have some 
choice. However, the cost is to forgo the benefits of GM crop 
protection.
    One major company, Dupont, has responded to the difficulty 
of exporting GM soybeans to Europe by announcing the release of 
a herbicide resistant soybean produced by mutation and 
selection in tissue culture rather than by transformation. 
There are also important ways in which GM technology can 
improve our crops that don't involve introducing foreign DNA. 
Congress, thorough the National Science Foundation, is 
supporting major research on sequencing the entire DNA of corn, 
for example, and there are similar programs in place for rice 
and wheat. This information is going to provide extremely 
efficient methods for testing the progenies of conventional 
crop plant breeding programs for winning combinations of DNA 
sequences and the characters of greatest interest to farmers 
and consumers alike.
    Although at times we are embarrassed by the surpluses that 
our support policies generate, which the needy cannot afford 
because of the high cost of transportation and distribution, we 
have to remember, nevertheless, that the world's population 
reached 6 billion last week, that it is expected to continue to 
9 billion in about 20 years from now, and until we find 
socially acceptable means of bringing global population growth 
under control, we need to explore every conceivable way to 
sustain food production in the face of shrinking land, water, 
and fossil energy resources. Genetic manipulation will be a 
very important tool in this enterprise.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Wheeling, I have some questions for you. Please tell us 
what would happen to and what would be the impact on your 
business, and indeed the tropical fruit industry in south 
Florida as a whole, if the citrus canker disease or some 
similar harmful pest is not eradicated and actually becomes 
established in your groves? What is the citrus canker spread to 
the entire citrus industry, and can you venture a guess as to 
the economic impact and the impact on you, your employees, your 
industry in our area and to the Nation?
    Mr. Wheeling. Sure. The impact on the lime industry in 
south Florida, we would probably lose the production from about 
3,000 acres. In some form or another, there are about 1,000 
people who depend on those 3,000 acres for their livelihood. Of 
even greater concern would be the spread to the citrus 
industry, in general, in Florida. I talked with Andy Levine 
yesterday, and he indicated that the export grapefruit industry 
alone employees, he estimated, 120,000 people, and the total 
citrus industry's impact is $6 billion annually on an economic 
basis. So, the impact of a disease like canker could be most 
serious.
    Ms. Ros-Lehtinen. And what do you think USDA should be 
doing on such a destructive disease or pest, as found in our 
Nation?
    Mr. Wheeling. I personally believe that USDA should move as 
rapidly as possible to eradicate the disease.
    Ms. Ros-Lehtinen. Are you satisfied with the progress?
    Mr. Wheeling. Absolutely not. In terms in citrus canker, my 
memory indicates it was 1994 or 1995 we had 17 square miles of 
citrus canker, and that has grown to over 500 square miles of 
quarantine area, and now we have a $170 million problem. So, I 
believe we should have moved much more rapidly before the 
spread of canker.
    Ms. Ros-Lehtinen. What would you say is at the root of the 
problem when you talk about the diseases that are coming in? Is 
it our trade policies? Is it the interpretation of the 
policies, their enforcement, or all of those? And do you 
believe that there is a disconnect between our agencies and the 
inspectors, the commitment to the safety of imported products, 
and the goals of our trade agencies?
    Mr. Wheeling. I believe it is probably a combination of 
factors, and I know the inspectors work awfully hard and try 
and do a great job, but I think the sheer volume of trade is 
just overwhelming our inspection system. Also there are 
probably problems in how we negotiate with other countries and 
the basis for allowing items into this country.
    Ms. Ros-Lehtinen. Thank you, Mr. Wheeling.
    Mr. Menendez and the Members, if you will excuse me, I am 
going to speak on trademark issues on the floor, and I would 
like Mr. Radanovich to Chair the rest of the hearing, and I 
hope I am able to come back. Thank you so much.
    Mr. Menendez.
    Mr. Menendez. Thank you, Madam Chairlady.
    Let me thank all the witnesses for their testimony, but I 
would like to focus on Dr. Day's testimony, if I can.
    Dr. Day, is there anything that we know of scientifically 
that establishes the GMO's as being dangerous for human 
consumption in terms of any scientific basis?
    Mr. Day. The short answer to that is no. There was an 
interesting case where a soybean was bred by introducing a gene 
from a Brazil nut to increase the content of a limiting amino 
acid, methionine, to make it more valuable as potential cattle 
food. Before that variety was released, fortunately the 
responsible company recognized that there are people who are 
allergic to Brazil nuts, and the engineered soybean was tested. 
It was indeed an allergen to sensitive people, and the sensible 
decision was made to cease any further work on it.
    I think that indicates that companies responsible for 
genetic engineering are taking the right attitude and are 
safeguarding the public's interest.
    Mr. Menendez. And that would be true virtually of any 
product development. Whether it be a pharmaceutical industry or 
whether it be of any other product development, you would take 
into consideration the potential reactions that someone could 
have with the use of your product.
    Mr. Day. Yes, indeed.
    Mr. Menendez. But beyond that specific example, which in 
any event was caught and contained before it ever got to the 
public by the company, we know of no sound science that would 
dictate in fact that GMs are necessarily harmful.
    Mr. Day. I think that is true, and, furthermore, we do have 
one rather interesting example where harm was done to the 
public by a product of a conventional plant breeding program, I 
am referring to a potato variety that was released 20 or 25 
years ago for resistance to a fungal disease named late blight. 
The name of the potato variety was Lenape, named after an 
Indian tribe from New Jersey. That variety had to be withdrawn 
because the tubers contained an unusually high level of the 
alkaloid, solanine, which made some people sick after eating 
the potato, even when it was cooked. Ever since then new potato 
varieties are routinely examined to establish that the levels 
of solanine alkaloid in the tubers falls below the nationally 
accepted standard.
    Mr. Menendez. Now, you said in your testimony that while 
this pursuit of GMO's have not necessarily translated to any 
consumer benefit, they have translated to farmer benefits. 
Would it not be fair to say that if in fact we reduce farmers' 
losses, if we lower farmers' costs, and if in fact we reduce 
pesticide pollution of the land and the water, that ultimately 
that is a consumer benefit?
    Mr. Day. Very definitely; of course it is. It is simply one 
that isn't appreciated immediately in the produce section of 
the market.
    Mr. Menendez. Right.
    Mr. Day. Except for price, of course.
    Mr. Menendez. Right. Last, the majority of the witnesses 
here have been focused--and of course with great concern--over 
the introduction of insects and other potential bacteria and 
viruses into the United States from abroad. But is not one of 
the potential benefits of GMO's to add characters of resistance 
to insects and plants that would ultimately resist such 
invasions from abroad?
    Mr. Day. Indeed, it is, Mr. Menendez, and this is a focal 
interest of my colleagues in the center I direct at Rutgers; 
that is to identify and prove novel methods of controlling the 
ravages of insects such as we have heard of this afternoon--
fungal, bacterial, and viral diseases.
    Mr. Menendez. And my last question would be, are you aware 
of any of our European trading partners involved in GMO 
technology pursuits unique to the United States or have they 
been pursued in Europe?
    Mr. Day. No, in fact, you could argue that in some respects 
our European trading partners are somewhat two-faced, because 
the majority of cheese that they eat is of course made with 
recombinant chymosin. So, they are already eating something 
that is genetically manipulated.
    Mr. Menendez. And they love their cheese. Thank you.
    Mr. Radanovich [presiding]. Thank you, Mr. Menendez.
    Mr. Wheeling, I have got a question of a representative 
from California, and when you are talking about the canker that 
is introduced itself into your area of the country, is it 
mainly with the Argentine citrus that this originates from? Is 
this what you are discussing?
    Mr. Wheeling. The belief now is that the canker is an Asian 
strain of canker, and possibly was introduced near the Miami 
Airport in 1992. The first detection was on a tree that the 
scientists have dated back to about that period of time. The 
thought is it was a possible hitchhiker from a tourist, 
possibly through the airport, but that is just one theory.
    Mr. Radanovich. Not origins in South America, but rather 
Asia?
    Mr. Wheeling. What I have been told by the scientists is 
the DNA looks like an Asiatic strain.
    Mr. Radanovich. I see, OK. That is all the questions I 
have.
    Mr. Sherman.
    Mr. Sherman. I regret I wasn't here for the first panel. I 
have a question I would like to read.
    At the same time, I would like Mr. Wheeling's reaction to 
it, because it relates to the citrus industry which is relative 
to the business he represents.
    During the past couple of years, there has been a marked 
increase in the number of exotic pests and diseases entering 
the United States--Africanized killer bees, fire ants, Asian 
long horn beetles, the glassy-winged sharpshooter, which I am 
not personally familiar with, and the various species of 
destructive fruit flies that seem to be regularly entering my 
state of California. As I think we are all aware, we have 
suffered over 26 separate fruit fly infestations in California 
this year alone. These include a variety of species--
Mediterranean, Mexican, Oriental, and olive--and this year the 
guava fruit fly was detected.
    Each of these infestations in agricultural trade disrupting 
quarantines. Both the pests and the quarantines pose an 
economic threat, and then also cause us to adopt expensive 
eradication programs at both the Federal and State level.
    The question I have is why are we suffering these 
infestations with such regularity? Where are the pests coming 
from? And why are the phytosanitary agencies that are in the 
Department of Agriculture--the Animal and Plant Health 
Inspection Service, APHIS, and the Plant Protection and 
Quarantine, PPQ--seem to be unable to prevent these 
developments? Do we lack necessary funding and manpower in 
those agencies? What else can Congress do to help those 
agencies do their job? It is possible that the Department of 
Agriculture would conclude that they have the budget resources 
to do the job, in which case, why aren't they doing the job, 
and why are being inundated with these various exotic pests?
    In particular, I think we should be alarmed that some of 
our trading partners, such as Korea, area losing confidence in 
USDA and its ability to assure the phytosanitary security of 
agricultural exports from the United States. This is 
demonstrated by the refusal of Korea to lift its quarantine on 
San Diego, Orange, and Riverside County, because they are 
concerned about the fruit fly entering and affecting their own 
citrus. I would like to know what we can do to reassure our 
trading partners that we are doing everything necessary to 
control these pests?
    Mr. Wheeling, perhaps you have a comment.
    Mr. Wheeling. I think--I am not a statistician, but I think 
you should be able to draw some conclusions between the rise in 
trade and the rise in pest infestations in Florida, and I am 
worried that we are not enforcing the laws at our border and 
stopping these pests as they come in. I think we need more 
enforcement at the border, and I also think we need to take a 
very rigorous examination of any new proposals for entering 
their fruits and vegetables into the United States and look 
very, very hard at the possibilities of those fruits and 
vegetables bringing in hitchhikers with them and causing very, 
very serious problems to the growers. The citrus canker is a 
horrible problem, and if it is not controlled, is going to cost 
society an enormous amount of money.
    Mr. Sherman. I realize that you have got a business to run 
where you may not know the answer to this, but as there has 
been this sharp increase in citrus imports to the United 
States, has there been a concomitant increase in the funding of 
the agencies that are supposed to inspect this imported citrus?
    Mr. Wheeling. I would have to decline to answer that, 
because, as you say, we just have our little business in 
Florida, and I wouldn't know the answer to that.
    Mr. Radanovich. If I may interject, there has been a 
decline in the funding.
    Mr. Sherman. A decline in the funding.
    Mr. Radanovich. Yes, yes.
    Mr. Sherman. Shifting to another subject, as we deal with 
genetically engineered and modified organisms, I am a bit 
concerned that this Committee and some of the pro-trade 
sentiments, which I have voiced not infrequently, have been now 
used to tell the Europeans that they should not label GMO's, if 
they chose to do so, in a non-discriminatory way, a way that 
did not discriminate against American-produced products as 
opposed to European-produced products.
    I would note for the record here that we have an awful lot 
of mandatory labeling which could not meet the standard of 
proving that it was scientifically necessary. For example, when 
I buy a product, it tells me what the carbohydrate content is, 
different types of fat, etc., and you could argue that some of 
the facts disclosed on a mandatory basis are, while correct, 
irrelevant. I know there are certain vitamins which I don't 
know if we have proven scientifically are necessary for human 
health, and yet many consumers would like to believe that those 
are helpful vitamins, would like to know whether their food 
products include them.
    I don't know if any of our panelists have a comment, but I 
am certainly concerned that in the name of free trade and 
treating American exports fairly, that we will be telling the 
Europeans not to disclose things that their consumers would 
want to know. Then we ourselves could not--no State in the 
United States could then force such a disclosure, and the 
beneficiary is not fair trade but rather non-disclosure to 
consumers. I think it is up to each individual consumer to 
decide whether they want to eat GMO's or not and would be very 
concerned if we are using our international power to tell 
people in other countries not to disclose the type of food that 
their consumers are being asked to consume.
    Mr. Cohen, do you have a comment?
    Mr. Cohen. Yes, thank you. On the nutrition labeling, the 
European Union has in fact stated that it believes that our 
mandatory nutrition labeling is a trade barrier. They have not 
yet sued us under the WTO, but every year they announce that 
that is their belief.
    If I can just say something about the general GMO issue, I 
don't believe it is exactly analogous to pharmaceuticals, 
because the regulatory structure is different. In this 
country----
    Mr. Sherman. I am not talking about pharmaceuticals.
    Mr. Cohen. Oh, well, the previous colloquy dealt with it.
    Mr. Sherman. Oh.
    Mr. Cohen. The drug companies have to prove that a drug is 
safe and effective before the FDA allows its use. For GMO's, it 
is self-policing by the industry, and the fact that none of us 
knows of any scientific basis for being nervous about the 
safety, may simply mean that the companies have not revealed it 
to the FDA. The FDA does not apparently have the power to 
require disclosure; it is just a completely voluntary self-
reporting system by the companies. While the one company did 
withdraw the product, we don't know whether other companies in 
the pursuit of profit have refused to reveal derogatory 
information, because obviously if it was revealed, they 
couldn't sell it. We just don't know at this point.
    Mr. Sherman. Now, we don't even argue that the Europeans 
would have the right to allow their grocery stores to put up a 
sign saying ``not genetically engineered food,'' or ``We don't 
sell any genetically engineered food,'' or ``Everything on this 
aisle is not genetically engineered.'' Is that correct? The 
issue is whether they can force a positive disclosure to 
something is genetically engineered?
    Mr. Cohen. I don't know what the administration's precise 
position is on GMO's. In the context of beef hormones, I do 
know something about that, because in trying to resolve the 
beef hormone dispute, there was a proposal of labeling. The 
United States was willing apparently to accept labeling that 
said that the beef came from the United States. The European 
Union wanted the beef to say that it was produced with 
hormones. There was no meeting of the minds on that, and we 
ended up with a trade war.
    Mr. Sherman. So, the Europeans were willing to go with a 
system under which both European and American beef produced 
with hormone would have an identical label that said, 
``Produced with hormone.''
    Mr. Cohen. Correct.
    Mr. Sherman. And the United States rejected that----
    Mr. Cohen. Correct.
    Mr. Sherman [continuing]. Believing that exporting to 
ignorant consumers was a right guaranteed under various trade 
agreements.
    Thank you very much.
    Mr. Radanovich. You are welcome. Any other questions?
    Mr. Menendez.
    Mr. Menendez. No, thank you.
    Mr. Radanovich. I want to thank the panel for your 
presentations and at this time we will adjourn the hearing.
    [Whereupon, at 2:43 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            OCTOBER 26, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T7606.001
    
    [GRAPHIC] [TIFF OMITTED] T7606.002
    
    [GRAPHIC] [TIFF OMITTED] T7606.003
    
    [GRAPHIC] [TIFF OMITTED] T7606.004
    
    [GRAPHIC] [TIFF OMITTED] T7606.005
    
    [GRAPHIC] [TIFF OMITTED] T7606.006
    
    [GRAPHIC] [TIFF OMITTED] T7606.007
    

</pre></body></html>
